Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  HOSPITAL INCIDENT REPORTING
   SYSTEMS DO NOT CAPTURE
      MOST PATIENT HARM




                    Daniel R. Levinson
                     Inspector General

                      January 2012
                     OEI-06-09-00091
   E X E C U T I V E                                 S U M M A R Y
    E X E C U T I V E                                 S U M M A R Y


                  OBJECTIVES
                         1. To describe how hospitals use incident reporting systems and
                            incident reports.
                         2. To determine the extent to which hospital incident reporting
                            systems capture patient harm that occurs within hospitals.
                         3. To determine the extent to which accreditors review incident
                            reporting systems when assessing hospital compliance with
                            Federal requirements to track instances of patient harm.


                  BACKGROUND
                  The term “adverse event” describes harm to a patient as a result of
                  medical care. This report is one in a series about adverse events in
                  hospitals. Hospitals must track and analyze instances of patient harm
                  as a condition of participation in the Medicare program. Incident
                  reporting systems are a common means that hospitals use to meet this
                  condition. Hospitals can demonstrate their compliance with this and all
                  other conditions through a survey by a State survey agency or
                  accreditation under an approved Medicare accreditation program.
                  To standardize hospital event reporting, the Agency for Healthcare
                  Research and Quality (AHRQ) developed a set of event definitions and
                  incident reporting tools known as the Common Formats.
                  In a 2010 report, the Office of Inspector General found that 13.5 percent
                  of hospitalized Medicare beneficiaries experienced adverse events
                  during their hospital stays that resulted in prolonged hospitalization,
                  required life-sustaining intervention, caused permanent disability, or
                  resulted in death. An additional 13.5 percent experienced temporary
                  harm events that required treatment. For this report, we collected
                  incident reports from hospitals where these adverse and temporary
                  harm events (events) occurred and interviewed administrators from
                  hospitals and representatives of accreditors.


                  FINDINGS
                  All sampled hospitals had incident reporting systems to capture
                  events, and administrators we interviewed rely heavily on these
                  systems to identify problems. All of the 189 hospitals we surveyed
                  reported using incident reporting systems designed to capture instances

OEI-06-09-00091   H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   i
E   X   E C     U T   I     V      E           S      U M           M      A      R Y


                          of patient harm. Administrators from all hospitals with reported events
                          (34 hospitals) indicated that they rely on incident reporting systems to
                          capture a large portion of the information about events that they use to
                          conduct patient safety improvement activities. The administrators
                          acknowledged that incident reporting systems provide incomplete
                          information about how often events occur, but they continue to rely on
                          the systems primarily because they value staff accounts of events.
                          Hospital staff did not report 86 percent of events to incident
                          reporting systems, partly because of staff misperceptions about
                          what constitutes patient harm. Of the events experienced by Medicare
                          beneficiaries discharged in October 2008, hospital incident reporting
                          systems captured only an estimated 14 percent. In the absence of clear
                          event reporting requirements, administrators classified 86 percent of
                          unreported events as either events that staff did not perceive as
                          reportable (62 percent of all events) or that staff commonly reported but
                          did not report in this case (25 percent).
                          Nurses most often reported events, typically identified through the
                          regular course of care; 28 of the 40 reported events led to
                          investigations and 5 led to policy changes. Nurses most often
                          identified events through patient observation and routine hospital safety
                          assessments. Information regarding one-quarter of events was not
                          accessible to the staff responsible for monitoring patient safety within the
                          hospitals and for making policy changes. Hospitals investigated the
                          events they considered most likely to yield information that would inform
                          quality and safety improvement efforts and made few changes to policy or
                          practices as a result of reported events.
                          Hospital accreditors reported that in evaluating hospital safety
                          practices, they focus on how event information is used rather than
                          how it is collected. Accreditors view incident reports within the
                          context of larger hospital quality and patient safety efforts. Officials
                          indicated that to assess hospitals, surveyors are most likely to review
                          the results rather than review the methods used to track hospital
                          adverse events. Surveyors would not specifically investigate these
                          methods, such as incident reporting systems, unless evidence of a
                          problem emerged through the survey process.




    OEI-06-09-00091       H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   ii
E   X   E C     U T   I     V      E           S      U M           M      A      R Y



                          RECOMMENDATIONS
                          Because hospitals rely on incident reporting systems to track and
                          analyze events, improving the usefulness of these systems is critical to
                          hospital efforts to improve patient safety. As Federal health care
                          research and oversight agencies, AHRQ and the Centers for Medicare &
                          Medicaid Services (CMS) are positioned to provide guidance and
                          incentives to hospitals to use incident reporting systems more fully. We
                          recommend the following actions:
                          AHRQ and CMS should collaborate to create a list of potentially
                          reportable events and provide technical assistance to hospitals in
                          using the list. AHRQ and CMS should create and promote a list for use
                          by hospitals, other health care providers, and clinical educators, such as
                          medical and nursing schools. The list would educate hospital staff about
                          the full range of patient harm that occurs in hospitals and would assist
                          hospital administrators in assessing incident reporting systems. AHRQ
                          and CMS should make it clear in promoting the list that listed events do
                          not need to be reported outside the hospital, but rather that the list is a
                          learning tool intended to broaden and improve staff understanding. The
                          agencies could promote this list through guidance and training documents
                          aimed at hospitals, other health care settings, and clinical education
                          settings, as well as through guidance documents to State and accrediting
                          surveyors. AHRQ could also promote the list through technical assistance
                          targeted at encouraging hospital use of the Common Formats.
                          CMS should provide guidance to accreditors regarding surveyor
                          assessment of hospital efforts to track and analyze events and
                          should scrutinize survey processes when approving accreditation
                          programs. CMS is testing draft interpretive guidelines for surveyors
                          regarding the requirement to track and analyze events. We recommend
                          that this guidance include information about how surveyors should
                          assess the adequacy of hospital event collection efforts, including
                          incident reporting systems, and should include the list of potentially
                          reportable events to be developed by AHRQ and CMS. CMS should also
                          suggest that surveyors evaluate the information collected by hospitals
                          using AHRQ’s Common Formats. Additionally, CMS should scrutinize
                          survey standards for assessing hospital compliance with the
                          requirement to track and analyze events and reinforce assessment of
                          incident reporting systems as a key tool to improve event tracking.



    OEI-06-09-00091       H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   iii
E   X   E C     U T   I     V      E           S      U M           M      A      R Y



                          AGENCY COMMENTS
                          We received comments on the draft report from AHRQ and CMS.
                          AHRQ concurred with our recommendation directed to it, stating that it
                          will collaborate with CMS to create a list of potentially reportable
                          events and provide technical assistance to hospitals in using the list.
                          AHRQ stated that it will meet with CMS staff to continue collaboration
                          on the potential use of Common Formats with surveyors and hospital
                          adverse event reporting systems. CMS concurred with both of our
                          recommendations, stating that strengthening hospital reporting
                          systems and practices is an essential component of efforts to prevent
                          patient harm. CMS stated that a voluntary list of adverse events used
                          for informational purposes could be highly beneficial for improving
                          incident reporting practices. CMS also indicated that it is developing
                          draft guidance for surveyors regarding assessment of patient safety
                          improvement efforts within hospitals.




    OEI-06-09-00091       H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   iv
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    All sampled hospitals had incident reporting systems to capture
                    events, and administrators we interviewed rely heavily on these
                    systems to identify problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                    Hospital staff did not report 86 percent of events to incident
                    reporting systems, partly because of staff misperceptions about
                    what constitutes patient harm . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                    Nurses most often reported events, typically identified through
                    the regular course of care; 28 of the 40 reported events led to
                    investigations and 5 led to policy changes . . . . . . . . . . . . . . . . . . . 14

                    Hospital accreditors reported that in evaluating hospital safety
                    practices, they focus on how event information is used rather
                    than how it is collected . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                    Agency Comments and Office of Inspector General Response. . . . 22


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                    A: Example Incident Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                    B: Content Analysis of the Sample Event Incident Reports . . . . . 25

                    C: Estimates, Confidence Intervals, and Key Statistics . . . . . . . . 28

                    D: Rates of Reporting by Event Category . . . . . . . . . . . . . . . . . . . 29

                    E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
   I N T R O D U C T I O N


                  OBJECTIVES
                         1. To describe how hospitals use incident reporting systems and
                            incident reports.
                         2. To determine the extent to which hospital incident reporting
                            systems capture patient harm that occurs within hospitals.
                         3. To determine the extent to which accreditors review incident
                            reporting systems when assessing hospital compliance with
                            Federal requirements to track instances of patient harm.


                  BACKGROUND
                  Office of Inspector General Reports About Adverse Events
                  This report follows a series of Office of Inspector General (OIG) reports
                  about adverse and temporary harm events in hospitals. 1 For this series
                  of reports, we defined “adverse events” as significant harm experienced
                  by patients as a result of medical care. We defined “temporary harm
                  events” as harm that required medical intervention but did not cause
                  lasting harm. Although an adverse or temporary harm event indicates
                  that the care resulted in an undesirable clinical outcome and may
                  involve medical errors, adverse events do not always involve errors,
                  negligence, or poor quality of care and may not always be preventable. 2
                  Practices and policies to ensure patient safety and reduce the incidence
                  of adverse events often involve identifying and learning from causes and
                  contributing factors. Efforts to meet this objective often rely on
                  hospital-staff-generated incident reports.
                  Hospital Incident Reporting Systems
                  Hospitals use incident reporting systems to monitor adverse events and
                  other patient safety issues. 3 Incident reporting systems, which vary in
                  design and functionality, capture and maintain reports of
                  patient-safety-related events documented by physicians, nursing staff,
                  or other hospital staff. Reported patient safety events could include

                    1 The most recent reports in the series are Adverse Events in Hospitals: Methods for

                  Identifying Events, OEI-06-08-00221, March 2010; and Adverse Events in Hospitals:
                  National Incidence Among Medicare Beneficiaries, OEI-06-09-00090, November 2010.
                      2 R.M. Wachter, Understanding Patient Safety, McGraw-Hill, 2008.
                      3 D.O. Farley, “Adverse-Event-Reporting Practices by US Hospitals: Results of a
                  National Survey,” Quality and Safety in Health Care, 17, 2008, pp. 416–423.



OEI-06-09-00091   H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   1
I    N T     R O      D   U    C T           I    O      N


                          adverse events, “near-misses,” or situations with the potential to harm
                          patients. Completed reports typically include first-person accounts and
                          other descriptive information about the events. Incident reports may
                          also include information about the impact of the event on the patient
                          and the causes of the events, if known. Hospital staff can submit
                          reports in writing or electronically, depending on the reporting system.
                          See Appendix A for an example of an incident report.
                          The 1999 Institute of Medicine (IOM) report, To Err Is Human:
                          Building a Safer Health System, encouraged the use of incident
                          reporting systems, maintaining that hospitals can address patient
                          safety problems only if events are identified and adequately described
                          by caregivers.4, 5 In a followup report, IOM recommended that hospitals
                          develop comprehensive patient safety improvement plans based on data
                          collected from internal incident reporting systems and other event
                          detection methods. 6 IOM advised hospitals to analyze these data to
                          identify the causes of events and to develop strategies to prevent
                          recurrence.
                          Incident reporting systems have limitations. First, it can be difficult to
                          determine incidence rates based on reported data because of variability
                          in the rate and consistency of reporting.7 Second, research suggests
                          that incident reporting systems capture only a small percentage of
                          adverse events and that some categories of events are
                          underrepresented. 8, 9 Additionally, the rate and consistency of event
                          reporting by hospital staff often varies. 10



                            4 L.T. Kohn, J.M. Corrigan, and M.S. Donaldson, eds., To Err Is Human: Building a

                          Safer Health System, A Report of the Committee on Quality of Health Care in America,
                          2000, p. 100.
                           5 P.J. Provonost, “Using Incident Reporting to Improve Patient Safety: A Conceptual

                          Model,” Journal of Patient Safety, 3(1), 2007, pp. 27–33.
                            6 P. Aspden, Patient Safety: Achieving a New Standard for Care, The National

                          Academies Press, Washington, D.C., 2004.
                            7 Agency for Healthcare Research and Quality (AHRQ), Users Guide: AHRQ Common

                          Formats Version 1.1, March 2010, p. 1-2.
                            8 T.K. Nuckols, “Rates and Types of Events Reported to Established Incident Reporting

                          Systems in Two US Hospitals,” Quality and Safety in Health Care, 16, 2007, pp. 164–168.
                            9 OIG, Adverse Events in Hospitals: Case Study of Incidence Among Medicare

                          Beneficiaries in Two Counties, OEI-06-08-00220, December 2008.
                              10 AHRQ,           Users Guide: AHRQ Common Formats Version 1.1, March 2010, p. 1-2.



    OEI-06-09-00091       H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   2
I   N T    R O        D   U      C T          I     O      N


                              Despite these limitations, stakeholders note that incident reporting
                              systems have advantages. These include systems’ familiarity among
                              hospital staff and the advantages derived from involving frontline
                              personnel in identifying safety hazards for the organization. 11
                              Compared to other event detection methods commonly used in hospitals,
                              incident reporting systems are thought to capture a wider range of
                              events at a lower cost to hospitals. 12
                              Requirements To Improve Patient Safety by Measuring Adverse Events
                              As a condition of participation (CoP) in Medicare, Federal regulations
                              require that hospitals develop and maintain a Quality Assessment and
                              Performance Improvement (QAPI) program.13 To satisfy QAPI
                              requirements, hospitals must “track medical errors and adverse patient
                              events, analyze their causes, and implement preventive actions and
                              mechanisms that include feedback and learning throughout the
                              hospital.” 14 To accomplish this, hospitals must “measure, analyze, and
                              track quality indicators, including adverse patient events, and other
                              aspects of performance that assess processes of care, hospital service,
                              and operations.” 15 Federal regulations do not specify means for meeting
                              the requirements, nor do they explicitly define what “quality indicators”
                              or “adverse patient events” hospitals should measure. 16
                              Hospital Accreditation
                              Most hospitals (89 percent) demonstrate their compliance with QAPI
                              and the other CoPs to the Centers for Medicare & Medicaid Services
                              (CMS) through a survey by a State survey agency or accreditation under
                              an approved Medicare accreditation program, a process known as
                              “deeming.” 17, 18 Currently, three national accreditors review hospitals:
                              the Joint Commission, the American Osteopathic Association (referred



                                  11 AHRQ,         Voluntary Patient Safety Event Reporting (Incident Reporting). Accessed at
                              http://www.psnet.ahrq.gov/primer.aspx?primerID=13 on March 31, 2011.
                                  12 K.G. Shojania, “The Elephant of Patient Safety: What You See Depends on How You
                              Look,” The Joint Commission Journal on Quality and Patient Safety, 36, 2010, pp. 399–401.
                                  13 42 CFR § 482.21.
                                  14 42 CFR § 482.21(c)(2).
                                  15 42 CFR § 482.21(a)(2).
                                  16 68 Fed. Reg. 3435, 3438–39 (Jan. 24, 2003).
                                  17 CMS, CMS Financial Report: Fiscal Year 2009.
                                  18 Social Security Act, § 1861(e), 42 U.S.C. § 1395x(e).




    OEI-06-09-00091           H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   3
I   N T    R O        D   U      C T          I     O      N


                              to as “HFAP”), and Det Norske Veritas (DNV) Healthcare.19 The
                              Secretary of Health and Human Services (HHS) granted deeming
                              authority to each of these accreditors after CMS determined that the
                              accreditation programs’ standards met or exceeded the requirements
                              listed in the CoPs.20 Hospitals that do not opt for accreditation can be
                              certified as meeting CoPs by State survey and certification agencies. 21
                              The accreditation and certification processes rely on periodic, onsite
                              inspections—called surveys—of hospitals. CMS provides guidance to
                              State survey and certification agencies for conducting surveys in its
                              State Operations Manual. 22
                              All three accreditors include QAPI-based quality, safety, and
                              performance provisions in their hospital requirements. These
                              provisions, like the QAPI CoP, typically include identifying adverse
                              events as part of broader quality and performance improvement
                              requirements and do not specify the means hospitals should use to
                              identify and analyze events. For example, one accreditor’s manual
                              specifies that hospitals should “use data and information to guide
                              decisions” and have an “organization-wide, integrated patient safety
                              program.” 23 This is similar to the QAPI CoP requirement that hospitals
                              “must develop, implement, and maintain an effective, ongoing,
                              hospital-wide, data-driven quality assessment and performance
                              improvement program.” 24 Each of the three accreditors defines what
                              constitutes an adverse event. Their lists of events vary and include
                              events that cause harm to patients, such as adverse medication
                              reactions; and process breakdowns that could lead to harm, such as
                              erroneous laboratory reports. 25, 26


                                  19 CMS, CMS-Approved Accreditation Organization                                     Contact Information, 2011.
                                  20 Social Security Act, § 1865, 42 U.S.C. § 1395bb.
                                21 The remaining 11 percent of hospitals were certified in compliance with the CoPs by

                              State survey and certification agencies. According to CMS, the percentage of hospitals
                              certified by State survey and certification agencies will begin to decrease after 2010 because
                              CMS has directed these agencies to prioritize other activities over initial hospital
                              certifications. CMS, CMS Financial Report Fiscal Year: 2010, pp. 130–131.
                                  22 CMS, State Operations Manual, Pub. 100-07.
                                  23 The Joint Commission, Hospital Accreditation                                Operations Manual, LD.03.02.01 and
                              LD 04.04.05.
                                  24 42 CFR § 482.21.
                                  25 The Joint Commission,                  Hospital Accreditation Operations Manual, PI.01.01.01.
                                  26 DNV,         NIAHO Standards and Interpretive Guidelines, QM 7 SR 1-18.



    OEI-06-09-00091           H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M      4
I   N T    R O        D   U      C T          I     O      N


                              AHRQ’s Common Format Event Reporting Tools
                              To support and standardize hospital event reporting, AHRQ developed a
                              set of event definitions and incident reporting tools known as the
                              Common Formats. 27 AHRQ defines the Common Formats as “clinical
                              definitions and technical requirements developed for the uniform
                              collection and reporting of patient safety data.” AHRQ developed the
                              Common Formats to assist hospitals in developing standardized
                              reporting methods and in reporting information to PSOs. 28 Under
                              AHRQ’s oversight, PSOs receive adverse event reports from hospitals,
                              analyze the reports in aggregate, and provide hospitals with analysis
                              and recommendations for improving patient safety. 29 AHRQ announced
                              Common Formats Version 1.1 in the Federal Register on March 31,
                              2010. Version 1.1 includes instructions for reporting events that harm
                              patients and “near-misses” (circumstances that have the capacity to
                              cause harm). 30
                              The Common Formats include descriptions of patient safety events and
                              unsafe conditions to be reported, specifications for aggregate event
                              reports and individual event summaries, delineation of data elements to
                              be collected for specific types of events, a user’s guide, and technical
                              specifications for electronic data collection and reporting. The Common
                              Formats allow PSOs to aggregate event and contributing factor
                              information from across hospitals for comparisons and trend analyses.
                              The Common Formats’ three event reporting forms focus on specific
                              areas: information describing the event, information describing the
                              impact on the patient, and summary and contributing factor
                              information. The Common Formats also contain event-specific modules
                              that provide additional detail for high-volume or high-harm events.


                                27AHRQ developed the Common Formats as part of HHS’s congressional mandate to
                              provide technical assistance to Patient Safety Organizations (PSO) on matters such as
                              methodology, communication, data collection, and privacy concerns. Public Health Service
                              Act, § 925, 42 U.S.C. § 922b-25.
                                  28 Sections 923 and 924 of the Public Health Service Act, which were added by the

                              Patient Safety and Quality Improvement Act of 2005, required HHS to determine that
                              PSOs meet certain criteria to perform “patient safety activities” and establish a network of
                              patient safety databases to receive, analyze, and report on patient safety information
                              submitted by the PSOs. Patient Safety and Quality Improvement Act of 2005,
                              P.L. 109-41 § 2; Public Health Service Act, §§ 923 and 924; 42 U.S.C. §§ 299b-23 and 24.
                                  29 73 Fed. Reg. 70733 (Nov. 21, 2008).
                                  30 75 Fed. Reg. 16140, 16141-42 (Mar. 31, 2010).




    OEI-06-09-00091           H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   5
I   N T    R O        D   U      C T          I     O      N


                              National Incidence of Adverse Events
                              In a November 2010 report, OIG estimated the national incidence rate
                              of adverse and temporary events in hospitals.31 We found that
                              27 percent of hospitalized Medicare beneficiaries experienced at least
                              one adverse event (13.5 percent) or temporary harm event (13.5 percent)
                              during hospitalizations that ended in October 2008. These rates were
                              projected to all beneficiaries hospitalized during October 2008.
                              To determine the national incidence rate, we selected a sample of
                              beneficiaries. Of the 999,645 beneficiaries discharged from acute care
                              hospitals during October 2008, we selected a random sample of 785. We
                              excluded 5 beneficiaries as ineligible because the hospitals where they
                              were treated were under OIG investigation, resulting in a sample of 780
                              beneficiaries. These sample beneficiaries had a combined total of 838
                              hospital stays with discharges in October 2008.
                              To identify adverse events experienced by sampled beneficiaries, we
                              conducted a two-stage review of their medical records. During the first
                              stage, we identified cases that met one or more of the following
                              conditions: (1) a certified medical coder identified a diagnosis in the
                              Medicare claims data that was coded as not present when the
                              beneficiary was admitted to the hospital, (2) nurse reviewers found
                              evidence of a potential adverse event in the medical records, or (3) the
                              beneficiary was readmitted to the hospital within 30 days after
                              discharge following a hospital stay ending in October 2008. 32
                              Based on findings from the first stage of review, we advanced 420 cases
                              to the second stage, in which physicians reviewed the beneficiaries’
                              hospital medical records to identify events. Physicians identified
                              128 adverse events that met at least one of three criteria:
                              (1) events on the National Quality Forum’s (NQF) list of Serious
                              Reportable Events;33 (2) events for which CMS will no longer pay a




                                31 OIG, Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries,

                              OEI-06-09-00090, November 2010.
                              32 The nurse reviewers used a modified version of the Institute for Healthcare
                              Improvement’s Global Trigger Tool. F.A. Griffin and R.K. Resar, IHI Global Trigger Tool
                              for Measuring Adverse Events, Institute for Health Care Improvement Innovation Series
                              2007, pp. 4–5.
                                  33 NQF,         Serious Reportable Events, October 2008.



    OEI-06-09-00091           H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   6
I   N T    R O        D   U      C T          I     O      N


                              higher Medicare reimbursement (known as hospital-acquired conditions
                              (HAC)); 34 and (3) events resulting in a prolonged hospital stay,
                              permanent harm, life-sustaining intervention, or death. Physicians also
                              identified 174 temporary harm events, which we defined as events
                              requiring intervention but not rising to the level of patient harm
                              associated with adverse events. In total, they identified 302 patient
                              harm events.


                              METHODOLOGY
                              Scope
                              This report estimates the national rate at which hospital incident
                              reporting systems captured events experienced by Medicare
                              beneficiaries discharged from acute care hospitals during
                              October 2008. This reporting rate and hospital administrators’
                              explanations for the reasons staff did not report events are projectable
                              nationwide to all Medicare beneficiaries hospitalized during this period.
                              To determine the estimated rate of reporting, we requested incident
                              report information from the 195 hospitals associated with the
                              302 events that we identified for the national incidence study. This
                              report also provides findings regarding hospital use of incident
                              reporting systems and information included in reports, which pertain
                              only to the sample of reported events and are not projectable. Lastly,
                              this report provides information about how hospital accreditors assess
                              incident reporting systems during hospital surveys.
                              Data Collection
                              Hospital surveys. To determine whether the hospitals associated with
                              the events had incident reporting systems designed to capture patient
                              harm events, we sent a survey to each of 195 hospitals associated with
                              the events. In the survey, we asked the hospitals to describe each of the
                              incident reporting systems they used to capture event information and
                              the types of information they expected to collect through the systems.
                              We received responses from 189 of the 195 hospitals describing 293 of
                              the 302 events (a 97-percent response rate).




                                34 CMS, Hospital-Acquired Conditions (HAC) in Acute Inpatient Prospective Payment

                              System (IPPS) Hospitals, October 2010.



    OEI-06-09-00091           H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   7
I   N T    R O        D   U      C T          I     O      N


                              Information requests. To identify which of the 302 events hospitals
                              captured in internal incident reporting systems, we sent information
                              requests to each of the 195 hospitals associated with the events. Each
                              information request identified the patient who experienced the event,
                              the stay in which the event occurred, and a description of the event that
                              physician reviewers identified. We asked each of the hospitals whether
                              the identified events had been captured by an incident reporting system
                              and, if so, to provide supporting documentation. If an event was not
                              captured, we asked the hospital for an explanation. Because we sent
                              the information requests along with the hospital surveys and received
                              information from each of the hospitals that returned a survey, we
                              received information for 293 events (a 97-percent response rate).
                              We also obtained supporting documentation from hospitals for all
                              captured events. Supporting documentation included incident reports,
                              copies of infection-tracking logs, skin-care management logs, peer
                              review documentation, and patient safety committee minutes. See
                              Appendix B for a description of the information in the completed
                              incident reporting system forms provided by the hospitals.
                              Hospital interviews. We conducted structured interviews with
                              administrative staff from each of the 34 hospitals in which an event was
                              reported to an incident reporting system.35 We conducted the
                              interviews in response to a request from CMS to determine what actions
                              the hospitals took following the reports of events. We asked each
                              hospital administrator to describe how information about an event was
                              shared within the hospital, the extent to which staff analyzed the event,
                              and whether the reporting of the event led to policy or process changes.
                              Findings pertaining to these interviews are not projectable and
                              represent only the actions of the 34 hospitals.
                              Accreditation organization interviews. We interviewed staff from the
                              three hospital accreditors. We gathered information on the extent to
                              which the accreditors review incident reporting systems when
                              evaluating hospital compliance with accreditation standards related to
                              quality and safety.



                                  35 In almost all cases, we interviewed the hospitals’ risk managers, patient safety
                              officers, and/or quality improvement specialists. We refer collectively to these staff
                              members as hospital administrators.



    OEI-06-09-00091           H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   8
I   N T    R O        D   U      C T          I     O      N


                              We focused on accreditors because they certified compliance for
                              89 percent of all hospitals in 2008. Within our sample of 189 hospitals,
                              CMS deemed 98 percent to be in compliance with Medicare’s CoPs
                              following accreditation by one of the three hospital accreditors: the
                              Joint Commission accredited 89 percent of sample hospitals, HFAP
                              accredited 5 percent, and DNV accredited 4 percent.
                              Data Analysis
                              We calculated the percentage of events that hospitals indicated their
                              incident reporting systems captured among the 293 events identified in
                              our national sample and included in our analysis. We also calculated
                              percentages for the reasons hospitals reported that incident reporting
                              systems did not capture the other events. We computed all rates and
                              corresponding 95-percent confidence intervals using the computer
                              program Sudaan, which provides standard errors for complex sampling
                              designs. See Appendix C for estimates, confidence intervals, and key
                              statistics.
                              Limitations
                              Hospitals may not have provided information about all events captured
                              by incident reporting systems. This could be due to a number of factors,
                              including the 2-year interval between the events and our information
                              request, concern about preserving the confidentiality of sensitive report
                              documents and potential liability in releasing such information, and
                              lack of effective hospital recordkeeping. These limitations could result
                              in our underestimating the extent to which hospital incident reporting
                              systems capture events.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-06-09-00091           H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   9
            F I N D I N G S

                                                                  All of the 189 hospitals in
All sampled hospitals had incident reporting systems
                                                                  which an event occurred
to capture events, and administrators we interviewed
                                                                  reported using general incident
    rely heavily on these systems to identify problems            reporting systems designed to
                                                                  capture information about
                        instances of patient harm from across hospital departments.
                        Additionally, most hospitals used specialized incident reporting systems
                        to capture events within specific hospital departments, such as
                        pharmacy; or to capture specific types of adverse events, such as patient
                        falls. The most common specialized systems focused on infections,
                        medication events, and patient complaints. See Table 1 for the types of
                        incident reporting systems that hospitals used to capture events.

                        Table 1: Types of Hospital Incident Reporting Systems (n=189)
                                                                                                                                                Number of
                             Type of System                                                                                                  Hospitals With
                                                                                                                                                   System
                             General incident reporting system designed to capture
                                                                                                                                                       189
                             all instances of patient harm
                             Specialized incident reporting system                                                                                     132
                               Infection tracking                                                                                                       98
                               Pharmacy or medication error tracking                                                                                    43
                               Patient complaint tracking                                                                                               40
                               Security issues                                                                                                          14
                               Harm to staff                                                                                                                7
                               Regulatory compliance                                                                                                        4
                        Source: OIG analysis of information requests completed by the 189 hospitals where the 293 events occurred.



                        Hospital administrators indicated that they encourage staff to report any
                        instance of patient harm to incident reporting systems
                        During followup interviews, administrators at 34 of the 189 hospitals
                        indicated that they expect staff to report any instance of patient harm
                        and even circumstances that could lead to harm. They explained that
                        staff have broad instructions to report all patient safety problems.
                        Additionally, these hospitals typically provide training focused on
                        reporting specific types of events commonly understood as patient harm,
                        such as pressure ulcers. However, none of the hospitals maintained a
                        list of events required to be reported to incident reporting systems.




      OEI-06-09-00091   H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M             10
F   I   N   D I       N G    S


                            Hospital administrators we interviewed explained that they rely heavily on
                            incident reporting systems to identify safety problems
                            Administrators from all 34 hospitals indicated that they rely on incident
                            reporting systems to capture much of the information used to conduct
                            patient safety improvement activities. Many administrators reported
                            that they combine reported information with data collected through
                            other event detection methods, including medical record reviews
                            (18 administrators), administrative data screening (17), manual or
                            automated review for evidence of hospital-acquired infections (8), and
                            postprocedure checklists to identify complications (8).
                            Administrators also reported a number of benefits to capturing
                            information through incident reporting systems. Foremost,
                            administrators explained that reports from staff who are directly
                            involved with events provide greater detail and insight about the
                            patient, circumstances, and possible contributing factors (such as
                            specific breakdowns in processes) than information provided by other
                            event detection methods. Other reported benefits of incident reporting
                            systems include identifying a broad range of events (reported by
                            12 administrators) and focusing staff attention on patient safety issues
                            (reported by 9).
                            Hospital administrators we interviewed also noted several factors that limit
                            the usefulness of incident reporting systems
                            Although administrators largely expressed confidence in their systems
                            to generate useful information, many identified limitations.
                            Twenty-two of the thirty-four administrators indicated that
                            underreporting of events by hospital staff leads to inaccurate
                            measurement of patient harm. Administrators expressed concern that
                            underreporting can affect patient safety efforts by potentially skewing
                            resources toward prevention of more easily identifiable occurrences that
                            happen at a point in time (such as patient falls) rather than complex
                            events that occur over a longer period and are more difficult to detect
                            (such as blood clots). Sixteen administrators noted that reports to their
                            systems often require additional investigation, such as a root-cause
                            analysis, to provide meaningful information. Further,
                            10 administrators noted that it is sometimes difficult to interpret data
                            from their systems. For example, an increase in reports about a certain
                            type of event could reflect either an increase in occurrences or improved
                            reporting.


    OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   11
        F   I   N   D I       N G    S



 Hospital staff did not report 86 percent of events to                   Despite the existence of incident
                                                                         reporting systems, hospital staff did
 incident reporting systems, partly because of staff
                                                                         not report most events that harmed
misperceptions about what constitutes patient harm
                                                                         Medicare beneficiaries. Of the
                                    events experienced by a national sample of beneficiaries discharged in
                                    October 2008, hospital incident reporting systems captured only an
                                    estimated 14 percent of events.36 Further, hospital staff reported only
                                    2 of the 18 most serious events in our sample (i.e., those events that
                                    resulted in permanent disability or death). Serious events not captured
                                    by incident reporting systems included hospital-acquired infections,
                                    such as a case of septic shock leading to death; and medication-related
                                    events, such as four cases of excessive bleeding because of the
                                    administration of blood-thinning medication that also led to death.
                                    Incident reporting systems did not capture any of the five NQF Serious
                                    Reportable Events and only one of the eight Medicare HAC events in
                                    our sample. Medicare does not require hospitals to capture information
                                    about these events through incident reporting systems. However,
                                    because events on the NQF and Medicare HAC lists are widely
                                    recognized among medical professionals as constituting patient harm,
                                    many among the public and in the health care community may expect
                                    them to be reported by hospital staff.
                                    Administrators conceded that it was likely not clear to staff which events
                                    to report, given the wide range of patient harm that can occur in hospitals
                                    In the absence of clear reporting requirements for events, it is difficult
                                    for staff to determine hospital expectations for reporting incidents.
                                    Although administrators indicated that they want staff to report all
                                    instances of harm, when asked about specific events administrators
                                    conceded that staff may often be confused about what constitutes harm
                                    and is, therefore, reportable. For each of the events that staff did not
                                    report (86 percent of all events), hospital administrators indicated
                                    whether they would expect staff to recognize the events as reportable
                                    patient harm. They classified most unreported events as events that
                                    hospital staff most likely did not perceive as reportable (62 percent of all
                                    events) and the remaining unreported events (25 percent) as events that

                                        36 Because we found no statistically significant difference in reporting rates between
                                    adverse and temporary harm events, we refer to adverse events and temporary harm events
                                    collectively as “events.” The Cochran-Mantel-Haenszel chi-square test was not significant
                                    at the 95-percent confidence level (p=0.7380).



            OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   12
F   I   N   D I       N G     S




                            staff commonly reported but did not report in this particular case. See
                            Table 2 for detailed information on why staff didn’t report events.

                            Table 2: Events by Reporting Category and Reasons
                            Administrators Gave for Why Staff Did Not Report (n=293)
                                                                                                                                                 Percentage of
                              Event Category
                                                                                                                                                    All Events
                              Events Captured by Incident Reporting Systems (n=40)                                                                         14%
                              Events Not Captured by Incident Reporting Systems (n=253)                                                                    86%
                               Event was not reported; staff did not perceive event as reportable
                                                                                                                                                         62%*
                               because:
                                   Event was not caused by a perceptible error                                                                             12%
                                   Event was an expected outcome or side effect                                                                            12%
                                   Event caused little harm and/or harm was ameliorated                                                                    11%
                                   Event was not on hospital’s mandatory reporting list                                                                     9%
                                   Event occurs frequently in hospitals                                                                                     8%
                                   Event symptoms became apparent after discharge                                                                           5%
                                   Event occurred in patient with a history of similar events                                                               4%
                                   No reason given for why staff did not perceive event as reportable                                                       2%
                               Event was not reported although event type is commonly reported                                                          25%*
                                 Total                                                                                                                  100%
                              Source: OIG analysis of the 293 information requests completed by hospitals where events occurred.
                              * Percentages do not sum to 86 percent because of rounding.


                            For the 62 percent of events not reported because staff did not perceive
                            them as reportable, administrators indicated that staff likely did not
                            recognize that the event caused harm or realize that they should
                            complete a report. The most common reason administrators gave for
                            staff underreporting was that no perceptible error occurred (12 percent),
                            indicating that staff commonly equate the need to complete incident
                            reports with medical errors. Other reasons for underreporting include
                            staff becoming accustomed to common occurrences and therefore not
                            submitting reports, such as events that were expected side effects
                            (12 percent) or occurred frequently (8 percent). For example, staff
                            reported only 1 of 17 sample events related to catheter usage
                            (e.g., infection and urinary retention), a common cause of harm to
                            Medicare beneficiaries. In other cases, the symptoms of the event did
                            not become apparent until after the hospital discharged the patient
                            (5 percent). Administrators reported that such events are unlikely to be
                            captured by hospital incident reporting systems unless patients return
                            to the hospital and staff uncover a causal link with the prior
                            hospitalization.



    OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M        13
          F   I   N   D I       N G    S


                                      Administrators indicated that the remaining 25 percent of events were
                                      types of harm that staff commonly report to incident reporting systems
                                      and that they would expect staff to report. Administrators believed
                                      these events were clearly reportable because hospital staff received
                                      specific training to report this type of event and/or the event had
                                      characteristics that staff commonly associated with patient harm, such
                                      as the result of a specific action. For example, staff reported all patient
                                      falls, an event that is often the focus of hospital safety efforts. If
                                      hospital staff had reported the 25 percent of events that are commonly
                                      reported, the rate of reporting would have increased from
                                      14 to 38 percent. It is difficult to determine why staff did not report
                                      these events, but administrators suspected both limited staff time and
                                      misperceptions that other staff would report the event.


  Nurses most often reported events, typically identified                     Information in incident reports
through the regular course of care; 28 of the 40 reported                     typically described the reported
 events led to investigations and 5 led to policy changes                     event and its impact on the
                                                                              patient. Administrators from each
                                      of the hospitals with a reported event (34 hospitals) indicated that they
                                      attempted to use the information to improve patient safety, typically as
                                      a starting place for further investigation and analysis. Hospitals
                                      conducted investigations for two-thirds of events, although few events
                                      resulted in changes to hospital policies or practices.
                                      Nurses reported 31 of the 40 events to incident reporting systems, with
                                      the remaining 9 events reported by a variety of other hospital staff
                                      The hospitals designed most incident reporting systems to allow
                                      reporting by any staff member or associated clinician, such as
                                      physicians and therapists; in some cases the systems also allowed
                                      reporting by parties other than hospital staff, such as patients and
                                      families. Hospital administrators said that they encourage all staff to
                                      report, including those in specialized departments and those following
                                      patients through a course of care. For example, one administrator said
                                      that his or her hospital relies on case managers to identify events that
                                      transpire over multiple days or are the result of patient transfers
                                      between departments.




              OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   14
F   I    N   D I     N G   S



                           Nurses discovered 24 reported events through observation of patients in
                           the regular course of care. Nurses and other staff, such as infection
                           control specialists and case managers, discovered the remaining 16
                           reported events by completing hospital safety assessments designed to
                           identify problems. When staff identified events through hospital safety
                           assessments, the results of the assessments prompted staff to create
                           incident reports. Staff identified 10 of these 16 events using
                           criteria-based patient evaluations (such as skin assessments required
                           for all patients at risk for developing pressure ulcers) and the remaining
                           6 events through more general screening of patient records (such as a
                           nurse’s review of patient condition at the end of a shift). See Table 4 for
                           a list of how staff first identified the events they reported.

                           Table 4: Hospital Detection Methods That Identified Events
                           Reported to Incident Reporting Systems (n=40)
                                                                                                                                                   Events
                                Method of Event Identification
                                                                                                                                                Identified
                               Identified by Staff Through Patient Observation During the
                               Regular Course of Care                                                                                                  24

                               Identified After Criteria-Based Patient Status Reviews                                                                  10
                                  Skin integrity assessment                                                                                             3
                                  Blood culture analysis to identify patients likely to develop an
                                                                                                                                                        2
                                  infection
                                  Chart review of patient who met hospital-defined criteria                                                             1
                                  Medication review following emergency rescue medication                                                               1
                                  Medication review following potential contraindication                                                                1
                                  Potential complication questionnaire following procedure                                                              1
                                  Chart review following patient complaint                                                                              1
                               Identified Through Routine Screening of Hospital Tests                                                                   6
                                  Blood culture analysis                                                                                                2
                                  Case management review                                                                                                2
                                  Skin care assessment                                                                                                  2
                               Source: OIG analysis of interviews with administrators at hospitals where the 40 reported events
                               occurred.



                           Information regarding one-quarter of events was not immediately accessible
                           to the staff responsible for monitoring patient safety within hospitals
                           Hospital staff reported 29 events to general incident reporting systems
                           that staff responsible for hospitalwide event tracking and monitoring
                           (e.g., patient safety staff, such as risk managers or patient safety
                           officers) used to monitor event occurrence. These systems either
                           automatically sent an alert to relevant staff (e.g., event specialists or
                           department managers) or stored the event in a database for later

        OEI-06-09-00091    H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M         15
F   I   N   D I       N G    S


                            review. The hospital administrators we interviewed reported that
                            patient safety staff reviewed events captured by these systems daily or
                            at the end of each shift.
                            Hospital staff reported the other 11 events to department-specific
                            specialized systems (e.g., infection tracking systems), making them
                            immediately accessible to centralized patient safety staff. In most of
                            these cases, centralized patient safety staff became aware of the events
                            only after receiving aggregate event summaries generated by these
                            systems. Hospital administrators reported that patient safety staff
                            generally do not have immediate access to the information collected in
                            these specialized systems and rely on the system managers to forward
                            reports periodically. For example, in one instance when a nurse entered
                            a pressure ulcer event into a skin wound event tracking log, patient
                            safety staff had access to the information only after a summary was
                            forwarded at the end of the month. Hospital administrators also
                            indicated that high rates of reporting to department-specific systems
                            that are not readily accessible to centralized patient safety staff can
                            lead to compartmentalization of information. They stated that this can
                            impede efforts to track and monitor adverse events across the hospital.
                            Hospitals investigated the events they considered most likely to inform
                            quality and safety improvement activities
                            The hospital administrators we interviewed reported that they
                            investigated and analyzed 28 of the 40 events for evidence of system
                            failures or medical errors to inform quality and safety improvement
                            activities. Patient safety staff conducted half of these investigations
                            (14 events); the rest were conducted by managers of departments where
                            the events occurred or by clinical event specialists, such as wound care
                            nurses or infection-control specialists. These reviews ranged from
                            informal reviews immediately following the incidents to structured
                            analyses intended to comprehensively identify errors that contributed to
                            adverse events (i.e., root-cause analyses). Hospital administrators
                            reported that they did not investigate the remaining 12 events because
                            they suspected that the events were isolated incidents unlikely to recur.
                            Therefore little benefit would derive from a quality improvement
                            investigation.




    OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   16
F   I   N   D I       N G    S


                            The most common type of investigation was a clinical review of a single
                            event, but hospital administrators reported that they regularly analyze
                            events in aggregated event reviews. Aggregated event reviews involved
                            reviewing data about multiple events to identify trends and common
                            causes. Administrators indicated that clinical reviews are usually
                            conducted by patient safety staff or department managers in
                            collaboration with the staff members directly involved with the event.
                            These clinical reviews were similar to root-cause analyses but contained
                            less detail and used fewer resources. The most frequently discussed
                            questions during these clinical reviews included whether staff correctly
                            assessed patients before treatment began; whether the standard of care
                            was met by the attending physicians; and what contributing factors led
                            to the event, such as medication mislabeling or poor communication
                            during shift changes.
                            Hospitals made few changes to policies or practices as a result of the
                            reported events
                            Hospital administrators reported that only 5 of the 40 sample incident
                            reports led to a hospital policy or practice change. Two of these events
                            led directly to changes in hospital policy or practice, and staff included
                            the other three in an aggregate event review that led to changes.
                            According to administrators, the remaining 35 reported events did not
                            result in a policy or practice change primarily because hospitals
                            reviewed the event information and determined that the occurrences did
                            not represent systemic quality problems within the hospitals.
                            Administrators reported that changes to hospital policies or practices as
                            a result of a single event are rare unless the event is found to represent
                            a systemic problem within the hospital. In other cases, hospital
                            administrators reported that they may already have procedures in place
                            to avoid a specific type of event. For example, hospitals may use special
                            pressure-reducing mattresses and have rigorous policies and training
                            regarding patient turning, yet still see some pressure ulcers develop.




    OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   17
F   I   N   D I       N G    S



       Hospital accreditors reported that in evaluating                     In interviews, officials
    hospital safety practices, they focus on how event                      from hospital accreditors
                                                                            noted the importance of
    information is used rather than how it is collected
                                                                            incident reporting systems
                            to hospital patient safety efforts. However, they also reported that they
                            are unlikely to scrutinize the effectiveness of event detection methods,
                            such as incident reporting systems, during hospital surveys.
                            Hospital accreditors view incident reporting systems within the context of
                            larger hospital quality and patient safety efforts
                            Officials from the three accreditors confirmed that their standards
                            require hospitals to track adverse events to inform safety improvement
                            efforts, as mandated by QAPI CoP, and that hospitals often use incident
                            reporting systems to satisfy this requirement. Officials indicated that
                            their surveyors are directed to assess hospital efforts by reviewing the
                            results of patient safety improvement efforts. Surveyors would not
                            specifically investigate mechanisms of hospital adverse event tracking
                            unless evidence of a problem emerged through their standard survey
                            process.
                            As an example, one accreditor described how surveyors assessed a
                            hospital’s efforts to track hospital-acquired infections. In this case,
                            surveyors focused on the care provided to individual patients as part of
                            the survey protocol. If a selected patient developed an infection, the
                            surveyor would investigate the circumstances of the infection, including
                            whether it was detected by an automated surveillance tool and reported
                            to an incident reporting system. The surveyor reviewed the report and
                            any noted corrective action. Although the review was described as fairly
                            thorough by the official, it was dependent upon whether a selected
                            patient contracted an infection or experienced some other reportable
                            event.
                            Surveyors may view data in an incident reporting system as part of
                            their review but do little investigation of the specific incident reporting
                            system, the mechanism of reporting, usability by staff, or typical
                            information in the reports (including the frequency of reported events).
                            One accreditation official explained that hospital administrators could
                            choose to demonstrate their incident reporting system as an example of
                            QAPI compliance or could choose to highlight event detection methods,
                            such as an electronic surveillance system or a medical record review
                            process.

    OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   18
F   I   N   D I       N G    S


                            Accreditors cited a number of reasons their surveyors do not scrutinize
                            incident reporting systems or other event detection methods during
                            hospital surveys. Most of the reasons rested on the perception that
                            event detection methods are complex and varied. First, hospitals collect
                            event data from a variety of sources, and it can be difficult to discern
                            which information is from a report and which is from a surveillance
                            record or medical record review. Second, surveyors may not have the
                            expertise to assess the reporting mechanism itself and provide
                            recommendations to improve reporting. Third, officials questioned the
                            value of requiring hospitals to collect event information in a particular
                            way, arguing that a prescribed approach may inhibit innovation. Given
                            this, some officials reasoned that it was better to focus on the output
                            than on the systems, but they conceded that this lack of focus on how
                            hospitals collect event information meant there was little scrutiny of the
                            reporting systems’ event data that hospitals use to inform their patient
                            safety improvement efforts.




    OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   19
   R E C O M M E N D A T I O N S



                      Previous OIG work determined that, despite significant attention from
                      stakeholders in recent years, adverse events continue to pose a serious
                      risk to hospitalized Medicare beneficiaries. Identifying events helps
                      hospital administrators set goals for improvement, direct resources, and
                      assess the effectiveness of prevention strategies. Hospital
                      administrators indicated that, although they employ a number of
                      methods to detect patient safety problems, incident reporting by staff is
                      the primary tool used to identify events. However, we found that
                      incident reporting systems did not capture 86 percent of events that
                      caused patient harm in a national sample of Medicare beneficiaries.
                      Further, hospital staff often did not report events because they did not
                      perceive them as causing reportable patient harm.
                      AHRQ and CMS are positioned to provide guidance and incentives for
                      hospitals to more effectively track and analyze adverse events. AHRQ
                      oversees critical research efforts, the PSO program, and the Common
                      Format event reporting tools. CMS oversees hospital accreditation,
                      which includes ensuring that hospitals have a data-driven performance
                      improvement plan that meets the standards detailed in the Medicare
                      CoP.
                      Therefore, we recommend the following:
                      AHRQ and CMS should collaborate to create a list of potentially
                      reportable events and provide technical assistance to hospitals in using
                      the list
                      Hospital staff identification of patient harm is critical to the success of
                      patient safety efforts. Hospital administrators reported that the most
                      common reason hospital staff do not report patient harm is that they do
                      not perceive the harm as a reportable event. As such, hospital efforts to
                      improve patient safety may be limited by focusing on only a small
                      subset of events that get more attention because they are more often
                      reported by staff. Given the importance of incident reporting to hospital
                      safety efforts, AHRQ and CMS should take steps to improve reporting
                      by hospital staff.
                      AHRQ and CMS should collaborate to create and promote a list of
                      potentially reportable events for hospitals, other health care providers,
                      and clinical educators, such as medical and nursing schools. We do not
                      recommend that AHRQ or CMS require hospitals to report the events
                      on the list. Rather, the list of events would educate hospital staff about
                      the full range of patient harm that occurs in hospitals and should be

    OEI-06-09-00091   H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   20
R   E C     O    M    M   E    N D           A T          I     O      N      S


                          reported to incident reporting systems. The list should go beyond the
                          fairly rare harm events included in the NQF and Medicare HAC lists
                          and include a comprehensive range of possible patient harm. Events on
                          the list could include those identified in prior OIG work and by other
                          researchers. 37 The list could also include “near-miss” occurrences, given
                          that AHRQ has promoted the reporting of near-misses as important for
                          improving practices. AHRQ and CMS should be clear in publishing the
                          list that they do not require external hospital reporting of listed events,
                          but provide the list to broaden and improve staff understanding.
                          The two agencies could promote this list as a guidance and training
                          document for hospitals, other health care settings, and clinical
                          education settings, as well as for State and accrediting surveyors.
                          AHRQ could also promote the list through technical assistance targeted
                          at encouraging hospital use of the Common Formats.
                          CMS should provide guidance to accreditors for assessment of hospital
                          efforts to track and analyze events and should scrutinize survey processes
                          when approving accreditation programs
                          Under the Medicare QAPI CoP, hospitals must track and analyze
                          adverse events. Administrators indicated that incident reporting
                          systems are critical to identifying and tracking events. Although
                          reporting systems captured few events, we found that accreditors do not
                          routinely assess incident reporting systems or other methods for
                          identifying events during hospital surveys.
                          CMS is testing draft interpretive guidelines for surveyors regarding the
                          QAPI CoP, including guidance about how surveyors are to assess
                          hospital operations for tracking patient harm. To facilitate more
                          extensive hospital detection of events, we recommend that this guidance
                          include information about how surveyors should assess hospital event
                          collection efforts, including incident reporting systems, and should
                          include the list of potentially reportable events to be developed by
                          AHRQ and CMS (addressed in our first recommendation).
                          CMS should also suggest that surveyors evaluate the information
                          collected by hospitals and compare it to the data elements of AHRQ’s


                              37Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries,
                          OEI 06-09-00090, pp. 51–61. See Appendix D for rates of reporting within the subcategories
                          of events identified in the national incidence study.



    OEI-06-09-00091       H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   21
R   E C     O    M    M   E    N D           A T          I     O      N      S


                          Common Format event reporting tools, which include the information
                          that AHRQ has found to be most useful in patient safety efforts. This
                          comparison could serve not only to assess the quality of reported
                          information but also would further promote use of the Common Formats
                          by hospitals in developing their internal incident reporting systems.
                          Additionally, CMS should scrutinize survey standards for assessing
                          hospital compliance with the requirement to track and analyze events
                          and reinforce assessment of incident reporting systems as a key tool to
                          improve event identification and tracking. Given the low reporting
                          rates and lack of assessment by accreditors during hospital surveys,
                          CMS should ensure that accreditation survey practices bring about a
                          meaningful examination of systems that identify events, including
                          mechanisms for reporting events, and hospital efforts to address
                          underreporting and use information.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          We received comments on the draft report from AHRQ and CMS.
                          AHRQ. AHRQ concurred with our recommendation to collaborate with
                          CMS in creating a list of potentially reportable events and providing
                          technical assistance to hospitals in using the list. AHRQ stated that it
                          will meet with CMS staff to continue collaboration on the potential use
                          of Common Formats by surveyors and hospital adverse event reporting
                          systems.
                          CMS. CMS concurred with our recommendations and stated that
                          strengthening hospital reporting systems and practices is an essential
                          component of efforts to prevent patient harm. CMS provided
                          information about future plans to improve patient safety, including the
                          public-private “Partnership for Patients,” a national initiative intended
                          to reduce adverse events and complications caused during transitions
                          from hospitals to other health care settings.
                          In response to our recommendation that CMS collaborate with AHRQ in
                          creating a list of potentially reportable events, CMS stated that a
                          voluntary list of adverse events used for informational purposes could
                          be highly beneficial for improving incident reporting practices, and it
                          has initiated this collaboration. In response to our recommendation
                          that CMS provide guidance to accreditors, CMS stated that it is

    OEI-06-09-00091       H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   22
R   E C     O    M    M   E    N D           A T          I     O      N      S


                          developing draft guidance for surveyors regarding assessment of the
                          QAPI CoP within hospitals. This guidance will include the expectation
                          that hospitals provide staff with “detailed, unambiguous instructions on
                          the types of events that should be reported.” Further, CMS stated that
                          it will recommend that hospitals use both the list of potentially
                          reportable events and the AHRQ Common Formats in developing these
                          staff instructions.
                          For the full text of AHRQ and CMS comments, see Appendix E.
                          We made minor changes to the report based on technical comments.




    OEI-06-09-00091       H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   23
A P   AP PE NP DE IN X D ~ I ~AX ~A A

                              Example Incident Report

                              Below is a reproduction of an incident report we received during data
                              collection. We redacted all patient and hospital information.


       Incident Info: Patient Fall                                    People Involved:
       Incident Number: 8726                                             (Reporting Employee Name )
       Log Date: 10/01/2008 2:25:21 PM                                Other People Involved:
       Incident Date: 10/01/2008 2:20:00 PM                              Witness
       Location: BATHROOM                                                (Attending Physician Name)
       Primary Person Involved: (Patient Name)                           (Employee Reviewer Name)
        Account Number:                                                  (Employee Reviewer Name)
        Birth Date:                                                      (Employee Reviewer Name)
                                              Comments/Incident Description/Additional Details
       Review Comment Made by: (Employee Name)
       RN and LPN had walked patient to bathroom several times. Patient used call light and or they checked in with her and
       walked her back from bathroom. At the time of this fall, the patient unexpectedly got up unassisted and fell. C/o rib pain,
       physician notified, no injury confirmed per radiology. The plan of care was updated with communication regarding nature of
       fall.
                                                                   Details
                                    Falls                                                   Patient Outcomes
       Type of Fall                    -To/In bathroom
                                                                      Were the healthcare
                                       -Other: LT RIB DISCOMFORT personnel caring for the             -Yes
       Injury Type                     -Abrasion/ Laceration/         patient notified?
                                       Bruise

                                           -Mattress sensor                              Was additional treatment
       Restraints/Siderails                                                                                                            -No
                                           -SR up x2                                     provided to the patient?

                                                                                                                                       -14 Other: PAIN LT RIB
       Physician                           -Physician was notified                       Patient Outcomes
                                                                                                                                       -03 Abrasion/Bruise

       Was equipment involved?             -No                                                                           Severity of Injury

                                                                                                                                       -MINOR-NO TREATMENT
       Mental status at time of            -Other: FORGETFUL -Alert
                                                                                         Severity of Injury:                           REQUIRED OR MINIMAL
       fall                                and oriented x3
                                                                                                                                       TREATMENT (FIRST AID)

       Current Documented Risk                                                                                             Level 1 Review
       Assessment Level Prior to           -High
       this Fall                                                                         Contributing Factors                          -N/A

       Could medication have                                                             Follow Up Actions                             -Additional Data Collection
                                           -No
       been factor in fall?
                                                                                                                           Level 2 Review

                                                                                         Was the bill adjusted?                        -N/A

                                                                                                                           Level 3 Review

                                                                                         Has a memo been drafted to
                                                                                                                                       -N/A
                                                                                         Medical Staff Leadership?




  OEI-06-09-00091             H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M                     24
   A P P E N D I X ~ B

                  Content Analysis of the Sample Event Incident Reports
                  Supporting Documentation Provided by Hospitals
                  Hospitals provided supporting documentation for each of the 40 events
                  reported by staff to an incident reporting system. Of the 40 supporting
                  documents, 19 consisted of full copies of the report forms that hospital
                  staff completed when they reported events to an incident reporting
                  system. We refer to these as incident reporting forms. For the other 21
                  reported events, hospitals did not provide the full incident report. In
                  these cases, hospitals had not retained the full report but provided
                  archived information to confirm that a report was made. This often
                  included only basic information, such as the event type and date and did
                  not represent the initial incident report. Therefore, we did not include
                  the provided information for these 21 events in our content analysis.
                  We examined each of the 19 incident report forms and compared them
                  to the Agency for Healthcare Research and Quality (AHRQ) Common
                  Formats. 38, 39 AHRQ did not provide hospitals with the Common
                  Formats until after our sample hospitals reported these events, and
                  even now their use by hospitals is voluntary. However, the Common
                  Formats represent a Federal effort to determine what information
                  hospitals should include in incident reports, and in the absence of
                  Federal requirements for report content, we used the Common Formats
                  as a tool to compare the information in sample hospital incident reports.
                  Analysis of Data in the Incident Reports
                  We compared the individual data points in each incident reporting form
                  to specific AHRQ Common Formats data elements. To determine
                  whether an element was present, we reviewed the forms for fields
                  indicating that the hospital requested the information from the reporter
                  and that the request was fulfilled. If the information was requested but
                  not completed (indicated by a blank field), we did not consider the
                  element present. We collapsed the Common Format data elements into
                  three categories based on AHRQ’s event reporting forms: basic event


                      38AHRQ, Common Formats. Accessed at https://www.psoppc.org/web/patientsafety on
                  March 31, 2011.
                      39 We used AHRQ’s Common Formats event reporting tools because they represent

                  AHRQ’s efforts to consolidate the necessary elements of an incident report for the purposes
                  of patient safety improvement. AHRQ announced Version 1.0 of the Common Formats in
                  the Federal Register in September 2009 and Version 1.1 in March 2010.



OEI-06-09-00091   H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   25
A   P P     E   N     D I      X     ~      B


                            information, patient impact information, and summary and contributing
                            factors.
                            Results of Content Analysis
                            In assessing these 19 incident reports, we found that report form and
                            content were largely similar among hospital incident reporting systems.
                            Incident reports most often focused on information that is likely readily
                            available to staff who report, such as when and where the event
                            occurred and the type of event. When compared to the AHRQ Common
                            Formats, most incident reports contained basic event information and
                            patient impact information, but few contained summary information
                            and details about factors contributing to the event. Table B-1 provides a
                            summary of the 19 incident reports listed by the categories and
                            elements suggested in the AHRQ Common Formats.

                            Table B-1: Common Format Data Elements Present on the
                            Complete Incident Reports (n=19)
                                                                                                                                                   Number of
                              Element Description                                                                                                Reports With
                                                                                                                                                     Element
                              Basic Event Information
                                   Date the event was discovered                                                                                           19
                                   Location of the event                                                                                                   19
                                   Clinical category of the event                                                                                          19
                                   Whether the event was an adverse event, near-miss, or
                                                                                                                                                           17
                                   unsafe condition
                                   Narrative description of the event                                                                                      16
                              Patient Impact Information
                                   Time between event and assessment of harm                                                                               16
                                   Whether rescue steps were taken                                                                                         16
                                   Level of harm caused by event                                                                                           14
                                   Whether the event prolonged the patient’s length of stay                                                                 2
                              Contributing Factor Information
                                   Whether and which factors contributed to the event                                                                      10
                                   Patient safety staff’s summary of the event and followup                                                                 6
                                   Preventability of the event                                                                                              6
                                   Whether the event was a National Quality Forum Serious
                                                                                                                                                            0
                                   Reportable Event
                                   Whether a patient handoff was associated with the event                                                                  3
                              Source: Office of Inspector General analysis of 19 full incident reports associated with reported events.


                            Basic Event Information. Each of the 19 incident reports included basic
                            event information. The incident reports generally captured and


    OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M             26
A   P P     E   N     D I      X     ~      B


                            summarized basic information about the event and the patient involved,
                            including the date, location, and type of event. Most incident reports
                            (17 of 19 reports) also included elements for assessing whether the
                            incident caused patient harm (an actual event) or represented only a
                            near-miss or unsafe condition. To capture this information, reports
                            used a structured format with specific questions and scaled responses,
                            which hospital administrators indicated are useful for initially sorting
                            events. For example, administrators reported that they often review
                            the frequency of particular types of events using preset categories, such
                            as “excessive bleeding” or “surgical-site infection.” They reported that
                            more detailed reviews may then be targeted at more frequent events.
                            Patient Impact Information. Incident reports commonly included
                            descriptions of the impact of the event on the patient and actions taken
                            by staff as a result of the event, such as the time between the event and
                            an assessment (16 of 19 reports) and whether rescue steps were taken
                            (16 of 19 reports). Hospital administrators indicated that patient
                            impact information is often used to prioritize event investigations and,
                            in the case of severe events, trigger special procedures. For example,
                            one administrator said that when staff report events that have caused
                            severe harm, alerts are sent automatically to specially trained response
                            staff.
                            Contributing Factor Information. Incident reports were not likely to
                            contain analytic information included in the Common Formats, such as
                            factors that contributed to the event (10 of 19 reports). A number of
                            hospital administrators indicated that this is the most useful
                            information for conducting patient safety activities because it enables
                            them to understand whether particular contributing factors, such as
                            confusing medication labels, are a common cause of multiple types of
                            events.




    OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   27
   A P P E N D I X ~ C

                        Estimates, Confidence Intervals, and Key Statistics
                        We computed incidence rates and corresponding 95-percent confidence
                        intervals using appropriate statistical methods based on the sample.


            Table C-1: Estimates and Confidence Intervals
                                                                                                                                                95-Percent
                                                                                                                  Percentage                 Confidence Interval
            Events and Reasons Events Were Not Reported
                                                                                                                    Estimate
                                                                                                                                              Lower       Upper
                                                                                                                                              Bound       Bound
            Reporting Rate of Adverse and Temporary Harm Events (n=293)
             Events not captured                                                                                           86.4%               81.6%       90.0%
             Events captured                                                                                               13.7%               10.0%       18.4%
             Commonly reported to incident reporting system                                                                24.6%               19.0%       31.2%
             Not commonly reported to incident reporting system                                                            61.8%               55.4%       67.8%
             Not caused by a perceptible error                                                                             12.0%                8.5%       16.5%
             Was an expected outcome or side effect                                                                        11.6%                8.3%       16.0%
             Caused little harm and/or harm was ameliorated                                                                10.6%                7.4%       14.9%
             Was not on hospital’s mandatory reporting list                                                                  8.5%               5.5%       12.9%
             Occurs frequently in hospitals                                                                                  7.9%               5.2%       11.6%
             Symptoms became apparent after discharge                                                                        5.1%               2.8%        9.1%
             Occurred in patient with a history of similar events                                                            3.8%               2.1%        6.7%
             Administrator did not provide a reason*                                                                         2.4%               1.2%        4.9%
             Events captured and events commonly reported to incident
                                                                                                                           38.2%               32.2%       44.6%
             reporting systems
            Reporting Rate of Adverse Events (n=124)
             Captured adverse events                                                                                       12.9%                 8.3%      19.6%
            Reporting Rate of Temporary Harm Events (n=169)
             Captured temporary harm events                                                                                14.2%                9.4%       20.8%
            *Given the small proportions, confidence intervals for projected numbers exceed 50-percent relative precision.
            Source: Office of Inspector General (OIG) analysis of surveys associated with the 293 events identified by OIG.


            Figure C-1: Statistical Test Results
                                                                                                                                                      P-Value for
            Statistical Test                                                                                                                        Difference in
                                                                                                                                                     Proportions
              Test for relationship among harm events (i.e., adverse event or temporary harm event)
              and whether incident reporting systems captured the events                                                                                  0.7380
            Note: Weighted chi-square and Cochran-Mantel-Haenszel chi-square produced similar results.
            Source: OIG analysis of surveys associated with the 293 events identified by OIG.




OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M                    28
              A P P E N D I X ~ D

                                      Rates of Reporting by Event Category
                                      Table D-1 contains information about the rate of reporting for events
                                      identified in the sample by type of event.



Table D-1:           Rates of Reporting by Event Category (n=293)
                                                                                                               Number of                     Number of             Percentage
Type of Event                                                                                                    Sample                       Captured             of Captured
                                                                                                                 Events                         Events                  Events
Events Related to Medication                                                                                                111                             14             13%
 Acute renal insufficiency (kidney failure)                                                                                    6                             0              0%
 Allergic reaction or side effect related to skin                                                                              6                             0              0%
 Allergic reaction to blood or related product                                                                                 2                             1             50%
 Delirium or change in mental status                                                                                          29                             7             24%
 Dysrhythmia                                                                                                                   3                             0              0%
 Excessive bleeding                                                                                                           15                             2             13%
 Gastrointestinal complication                                                                                                 4                             0              0%
 Hypoglycemic event                                                                                                           17                             2             12%
 Hypotension                                                                                                                   5                             1             20%
 Other events related to medication                                                                                            2                             0              0%
 Respiratory complication                                                                                                      6                             1             17%
 Severe allergic reaction                                                                                                      3                             0              0%
 Severe headache or dizziness                                                                                                  3                             0              0%
 Severe hypotension                                                                                                            4                             0              0%
 Thrush and other opportunistic infection                                                                                      6                             0              0%

Events Related to Patient Care                                                                                               95                             15             16%
 Aspiration                                                                                                                   11                             1              9%
 Deep vein thrombosis, pulmonary embolism                                                                                      5                             0              0%
 Exacerbation of preexisting medical condition                                                                                 4                             0              0%
 Failure to treat constipation or obstipation                                                                                  3                             0              0%
 Intravenous infiltrate with symptoms                                                                                          5                             1             20%
 Intravenous volume overload                                                                                                  24                             0              0%
 Other events related to patient care                                                                                          5                             2             40%
 Patient fall with injury                                                                                                      5                             5            100%
 Skin tear, laceration, abrasion, or other breakdown                                                                           9                             1             11%
 Stage I, Stage II, or unstaged pressure ulcer                                                                                19                             5             26%
 Stage III pressure ulcer                                                                                                      3                             0              0%
 Tachycardia or dysrhythmia                                                                                                    2                             0              0%
                                                                                                                                                           continued on next page




        OEI-06-09-00091               H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M                     29
      A    P    P       E   N   D    I      X      ~     D




 Table D-1:             Rates of Reporting by Event Category (n=293) (Continued)

                                                                                                                   Number of                    Number of         Percentage
 Type of Event                                                                                                       Sample                      Captured         of Captured
                                                                                                                     Events                        Events              Events
 Events Related to Surgery or Other Procedures                                                                                   62                           7          11%
  Acute coronary syndrome                                                                                                          1                          0           0%
  Blood clot and other occlusion                                                                                                   2                          0           0%
  Cardiac complication                                                                                                             6                          2          33%
  Excessive bleeding                                                                                                             11                           1           9%
  Iatrogenic pneumothorax                                                                                                          3                          1          33%
  Other events related to surgery or other procedures                                                                              5                          0           0%
  Postoperative ileus                                                                                                              3                          0           0%
  Postoperative or postprocedural hypotension                                                                                      2                          0           0%
  Postoperative urinary retention                                                                                                  3                          0           0%
  Prolonged nausea and vomiting                                                                                                    2                          0           0%
  Respiratory complication                                                                                                         6                          2          33%
  Severe hypotension                                                                                                               4                          1          25%
  Surgical tear or laceration                                                                                                      3                          0           0%
  Urinary catheter-associated trauma                                                                                               3                          0           0%
  Urinary retention                                                                                                                8                          0           0%

 Events Related to Infection                                                                                                     25                           4          16%
  Bacterial infection                                                                                                              1                          0           0%
  Other bloodstream infection                                                                                                      4                          1          25%
  Respiratory infection                                                                                                            5                          1          20%
  Surgical or procedural site infection                                                                                            4                          1          25%
  Urinary tract infection                                                                                                          6                          0           0%
  Vascular catheter-associated infection (central or peripheral line)                                                              5                          1          20%
Source: Office of Inspector General (OIG) analysis of incident reports associated with the 293 events identified by OIG.




          OEI-06-09-00091                H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M               30
       A P PEN D                              x            E

                         Agency Comments
                         Agency for Healthcare Research and Quality


                     DEI',\RT)'1ENT   or HEAI:rH ;\ \if)   H UMAN SERVICES 	                             Agency for Healthcare
                                                                                                         Research and Quality


                                                                                                         540 Gaither Road
                                                                                                         RocKville. MD 20850
                                                                                                         www.ahrq.gov




                        NOV 1 6 2011

                  TO:              Inspector General, Department of Health and Human Services

                  FROM :           Director

                  SUBJECT:         OEllnspection Number OEI-06-09-00091

                  Thank you for the opportunity to review and comment on the Office of Inspector General's draft report
                  entitled, OEI -06-09-00091, Hospital/ncident Reporting Systems Do Not Capture Most Patient Harm.

                   Recommendation: AHRQ and eMS should col/aborate to create a list of potentially reportable events
                  and provide technical assistance to hospitals using the list.
                  AHRQ concurs with this recommendation . AHRQ has begun meeting with CMS to explore the role of the
                  Common Formats as the foundation for a list of reportable events.

                   Recommendation: CMS should provide guidance to accreditors regarding surveyor assessment of
                  hospital efforts to track and analyze events, and should scrutinize survey processes when approving
                  accreditation programs.
                   AHRQ concurs with this recommendation . AHRQ will meet with CMS staff to continue collaboration on 

                  the potential use o f Common Formats with surveyors and hospital adverse event report ing systems. 


                  Other technical notes for OIG staff: 

                  Page 5 -last sentence· The Common Formats' three event reporting forms focus on specific areas: 

                  information describing the event, information describing the patient, and summary and contributing 

                  factors. 


                  We suggest adding a new sentence: "The Common Formats also contain event specific modules that 

                  provide additional detail for high volume or high harm events." 


                  If you or you r staff have any questions, please feel free to contact Dr. Bill Munier, Director, Center for 

                  Quality Improvement and Patient Safety at Will iam.munier@Ja hrq .hhS.gov or 301-427-1921 




                                                                                  /S/
                                                                               Carolyn M. Clancy




OEI-06-09-00091            HOSPITAL INCIDENT REPORTING SYSTEMS          Do     NOT CAPTURE MOST PATIENT HARM                      31
A P PEN                D       x               E




                           Centers for Medicare & Medicaid Services

          ~~ttv.('~~




      !~..~~~"' Jt'C-	
                  ~
                  A'''' DEPARTMENT OF FIEALTH & HUMAN SERVICES                                     Centers for Medicare & Medicaid Services

       -."'. ::j
         :I~"',J't(1
                                                                                                   Administrator
                                                                                                   Washington. DC 20201




                       DATE:           NOV 1 8 2011

                       TO: 	          Daniel R. Levinson 

                                      Inspector General 

                                                                  /S/
                       FROM: 	        Donald M. Berwick, M.D. 

                                      Administrator 


                       SUBJECT: 	 Office oflnspector General (OIG) Draft Report: Hospital Incident Reporting
                                  Systems Do Not Capture Most Patient Harm (OEI-06-09-0009J)


                       Thank you for the opportunity to review and comment on this very timely and important study.
                       In the subject report, the OIG examines whether hospitals identified adverse events on their own
                       and, if so, the types of follow-up actions they took. The OIG reviewed the characteristics of
                       hospitals' internal incident reporting systems, as well as the methods used by hospital accrediting
                       organizations in evaluating hospital safety practices. There is a significant opportunity for far­
                       reaching improvement in the experience of individuals and families in the United States health
                       care system and the patient safety arena, as well as, an opportunity for savings to the taxpayer
                       and the beneficiary.

                       We note that since the incidents reviewed in this report, the Department of Health and Human
                       Services (HHS) has launched a new and ambitious public-private partnership entitled the
                       "Partnership for Patients." This national Partnership will help improve the quality, safety and
                       affordability of health care for Medicare, Medicaid and CHIP beneficiaries, and for all
                       Americans. More than 6,200 organizations - including more than 2,800 hospitals - have signed
                       the Partnership Pledge.

                       HHS and the Centers for Medicare & Medicaid Services (CMS) are working with a wide variety
                       of public and private partners to achieve the two core goals of this Partnership:

                           • 	 Keeping patients from getting injured or sicker in the health care system, and
                           • 	 Helping patients heal without complication by improving transitions from acute-care
                               hospitals to other care settings, such as home or a skilled nursing facility.

                       Hospitals' ability to identify patient harm that has occurred is an essential component of their
                       efforts to prevent future such harm. We are very appreciative of the contribution that the OIG is
                       making to our knowledge of common hospital approaches to identifying harm, the limitations of
                       the existing methods employed, and the OIG's recommendations for improvement. The
                       recommendations in this OIG report will help us strengthen the Partnership for Patients initiative
                       as we work with hospitals and other health care providers to improve patient safety.




OEI·06·09·00091             HOSPITAL INC I DENT REPORTING SYSTEMS   Do NOT CAPTURE MOS T PATIENT HARM                                32
A   P P     E   N     D I      X           ~          E




        Centers for Medicare & Medicaid Services (continued)




    OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   33
A   P P     E   N     D I      X           ~          E




         Centers for Medicare & Medicaid Services (continued)




    OEI-06-09-00091         H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   34
A   P P   E   N   D I   X    ~      D




   A C K N O W L E D G M E N T S


                            This report was prepared under the direction of Kevin K. Golladay,
                            Regional Inspector General for Evaluation and Inspections in the Dallas
                            regional office; A. Blaine Collins, Deputy Regional Inspector General;
                            and Ruth Ann Dorrill, Deputy Regional Inspector General.
                            Jeremy Moore served as the lead analyst for this study. Other principal
                            Office of Evaluation and Inspections staff from the Dallas regional office
                            who contributed to the report include Amy Ashcraft and Maria
                            Balderas; central office staff who contributed include Rob Gibbons,
                            Sandy Khoury, Tasha Trusty, and Rita Wurm.




      OEI-06-09-00091       H O S P I TA L I N C I D E N T R E P O R T I N G S Y S T E M S D O N O T C A P T U R E M O S T PAT I E N T H A R M   35
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
